7/26/2016

www.wheatlandcardsolutions.com/common/disc.aspx?id=64
Tuesday, July 26, 2016 | 3:27 pm
Contact Us

Log in to:

Personal Cards

Personal | Business

Cardholder Agreement

Learn More & Sign Up

Business Cards/Services

About Wheatland

CARDHOLDER AGREEMENT
The person (Cardholder) whose name appears on the face of the Visa Card (Card) by retaining, using or
permitting others to use such Card and the account represented by the Card, accepts the same subject to
the following terms and agrees with Wheatland Card Solutions (Issuer).
1. USING YOUR ACCOUNT: You, the Cardholder, authorize Issuer to pay for your Card account, all items
reflecting purchases and cash advances made or obtained through the use of your Card account upon
presentment to Issuer, and you promise to pay for all such purchases and cash advances, together with
all applicable INTEREST and fees, as hereafter set forth. You acknowledge that this account will not be
used for business purposes.
2. PAYMENT:
2.1 Issuer will furnish you with a monthly statement for purchases and cash advances made on your
account and you agree to pay Issuer in not less than 25 days from the closing date shown on the
statement, either (a) the New Balance, or (b) a minimum payment of 1% of all balances plus billed
interest plus all past due amounts plus any overlimit amount plus any new late payment fee; or $27,
whichever is greater.
2.2 Any credits posted to your account will not affect the minimum monthly payment. Your failure to pay
the minimum payment each month by the payment due date will cause your account to be delinquent.
Application of payments will be at our discretion. If different APRs apply to different balances, we will
allocate any amount you pay in excess of the required minimum payment due first to the balance with the
highest APR and any remaining portion to the other balances in APR descending order. Each monthly
statement will be considered a correct statement unless you establish a billing error under the provisions
of the Federal Truth in Lending Act.
2.3 Issuer may accept checks or other types of payment showing “payment in full” or other language
indicating satisfaction of your debt, without waiving any of Issuer’s rights to receive full payment under
this Agreement. You must send this communication to the address in the Billing Rights Summary on your
statement. Satisfaction of your debt for less than the full amount due requires a written agreement, signed
by an authorized Issuer associate.
2.4 Payments must be made by check, money order or electronically and payable in U.S. dollars. If you
request a payment by phone, a fee will apply and we may ask for security information for your protection.
Same day payments by phone cannot be edited or cancelled. We are not obligated to accept any
payment that is not drawn on the U.S. Post Office or a financial institution located in the United States.
2.5 When you provide a check as payment, you authorize us either to use information from your check to
make a one­time electronic fund transfer from your account or to process the payment as a check
transaction. When we use information from your check to make an electronic fund transfer, funds may be
withdrawn from your account as soon as the same day we receive your payment. The statements are
proof of payment and copies of your checks are available for up to 2 years.
2.6 Without prior notice to you, we may refuse to accept or may accept in good faith, any check presented
as a payment on your account which is more than six (6) months old. We may process the payment
before the date shown on the check unless you have given us three (3) business days or more advance
written notice that a postdated check will be presented as payment. You must send the advance notice
communication to the address in the Billing Rights Summary on your statement.
3. GRACE PERIOD: See the Paying Interest section in the Table of Charges.

4. BALANCE SUBJECT TO INTEREST: We use an average daily balance method (including new
transactions) to calculate periodic INTEREST. We do this separately with each of your different balances.
These balances include, for example, purchases, balance transfers, cash advances, and different
promotional balances. We figure the periodic INTEREST by multiplying the daily balance for each of the
http://www.wheatlandcardsolutions.com/common/disc.aspx?id=64
1/7

7/26/2016

www.wheatlandcardsolutions.com/common/disc.aspx?id=64
promotional balances. We figure the periodic INTEREST by multiplying the daily balance for each of the
balance categories by the daily periodic rate for each of those categories. Each daily periodic rate is
calculated by dividing its corresponding APR by 365. We do this for each day in the billing period. To get
a daily balance, we start with the balance as of the end of the previous day. We add any new
transactions, fees, other charges, and debit adjustments that apply to that category. We then subtract from

that balance any payments, credits, or credit adjustments that apply to that balance category and that are
credited as of that day. We treat a credit balance as a balance of zero. For each balance category, the
balance subject to INTEREST is the average of the daily balances during the billing period. If you multiply
this figure for each balance category by its daily periodic rate and by the number of days in the billing
period, the result is the daily periodic INTEREST for each of your different balance categories. We add up
all the daily periodic INTEREST for the balance categories and the sum of which is the total periodic
INTEREST for the billing period. Rounding may cause minor variations.
5. BALANCE TRANSFERS:
5.1 A 3% fee will apply to the amount of each balance transfer. Balance transfer transactions are
purchase transactions, but do not receive a grace period. INTEREST accrues from the date of posting. To
avoid INTEREST on new purchases after you transfer a balance, you must pay all balances on your
account, including the balances you transfer, in full by the first payment due date after the transfer.
Otherwise, you will incur INTEREST on new purchases due to the loss of the grace period, unless your
purchase APR is 0%. Balance transfers do not earn reward program points. See the Table of Charges for
the fee amount.
5.2 The total amount(s) paid and transferred, including any related fees, cannot exceed your credit line,
or $15,000. You cannot transfer: any existing balances on any Issuer accounts; any business debt; any
debt that is not owed by you; or any balances owed to creditors outside the United States. Issuer reserves
the right to refuse any balance transfer request for any reason, including for revolving debt that Issuer
believes excessive.
6. CASH ADVANCE TRANSACTIONS: A cash advance fee will be charged to your account for each
cash advance transaction. Cash advance transactions are non­purchase transactions which include, but
are not limited to, ATM transactions, teller transactions, convenience checks, quasi cash advance
transactions, and overdraft cash advance transactions. Quasi cash advance transactions are cash
advance transactions which include, but are not limited to, wire transfers, foreign currency, traveler’s
checks, money orders, wagering, and remote stored value. See the Table of Charges for each fee
amount.
7. MINIMUM INTEREST: If your Card is charged INTEREST, the charge will be no less than $1.50. This
amount will appear as a fee on your statement.
8. ANNUAL FEE: None.
9. LATE PAYMENT FEE: A late payment fee will be debited to your account as a purchase if your
payment is not received by the payment due date. For your first instance of a late payment, the fee will not
exceed $27. If the second instance occurs within six (6) months of the first instance, the fee will not
exceed $37. At no time will the late payment fee exceed the amount of the required minimum monthly
payment described in 2.1. These fees are listed in the Table of Charges.
10. LIABILITY FOR UNAUTHORIZED USE OF YOUR CARD AND LOSS OF CARD: You may be liable
for the unauthorized use of your Card if, based on substantial evidence, you were grossly negligent in the
handling of the account or Card. Please immediately notify Issuer in writing at P.O. Box 2235, Wichita, KS
67201, or orally by calling 888­521­8529, of loss, theft or possible unauthorized use of your Card or
convenience checks.
11. LIABILITY AND AUTHORIZED USERS: If more than one Card is issued on the account, all
Cardholders holding Cards with the same account number shall be jointly and severally liable on the
account. You may allow authorized users on your account in the following ways: (1) by notifying us that
you want someone added to your account as authorized user; (2) by lending your Card or account
number to another; or (3) by any other way in which you would be legally considered to have allowed
another to use your account or to be legally prevented from denying that you did so. Carefully consider
allowing anyone to become an authorized user because you authorize the person to use your account to
the same extent that you can, including but not limited to, making purchases, cash advances, balance
transfers and allowing others to use your account. Your account does not permit you to limit the nature or
amount of authority you give to any authorized user and you will not attempt to do so. An authorized
user’s authority will continue until you both notify Issuer that you are terminating that authority and you
physically retrieve the Card. If you cannot retrieve the Card, you will remain liable for any transactions
that we cannot prevent after you notify us.
12. LEGAL TRANSACTIONS:
12.1 You will only use your Card for transactions that are legal where you reside. Display of a Visa logo
http://www.wheatlandcardsolutions.com/common/disc.aspx?id=64

2/7

7/26/2016

www.wheatlandcardsolutions.com/common/disc.aspx?id=64
12.1 You will only use your Card for transactions that are legal where you reside. Display of a Visa logo
by an online merchant does not mean that an Internet transaction is legal where you live. Issuer will not
be liable if you engage in an illegal transaction.

12.2 Issuer complies with the Unlawful Internet Gambling Enforcement Act of 2006. This Act requires us
to establish policies and procedures to identify and block, or otherwise prevent or prohibit, unlawful
Internet gambling transactions. For example, Internet gambling transactions may be illegal in your state.
13. AUTHORIZATIONS: Some transactions require our prior authorization. Issuer may limit the number of
authorizations we give in a day. Issuer may deny authorization if you are delinquent, if Issuer suspects
fraudulent activity or for other reasons. You are liable for any transaction Issuer authorizes, even if Issuer
should not have authorized it, because you are or would be delinquent as a result of the transaction.
14. ESTABLISHED CREDIT LIMIT: You agree to keep the total balance on your account within the credit
limit established by Issuer, which has been previously disclosed to you. Issuer may change your credit
limit at any time. Issuer may, but is not required to, approve transactions that exceed your available credit
limit. If your account balance exceeds your credit limit and you fail to pay the entire minimum monthly
payment shown on your next monthly statement, which will include all sums necessary to reduce your
balance to your credit limit as required in the Payment section of this Agreement, your account will be
reported as delinquent and past due on your next monthly statement. At Issuer’s discretion, you will not
be permitted to access the amount of credit in your account equal to the amount of any payment you send
to the Issuer for a period of 15 days from the date your payment was posted to your account.
15. IMMEDIATE REPAYMENT/TERMINATION OF ACCOUNT: Issuer may declare the entire amount of
your account immediately due and payable, subject to provisions of law, upon the occurrence of one of
the following events: (1) your account is delinquent or past due, (2) your account balance exceeds the
established credit limit, (3) upon your death, bankruptcy or insolvency, (4) the prospect of payment or
performance is significantly impaired. Issuer may, at its sole discretion, reduce your credit limit, decline to
make further advances on your account, decline to reissue any Card or convenience checks on your
account, revoke or close your account. If you do not use your Card at least once in 12 months, Issuer
may, as permitted by applicable law, close your account. If your account is closed, you remain
responsible for paying any amounts owed on the account according to the terms of this Agreement. If you
move outside of the United States after your account is opened, your Card may not be reissued at its next
expiration date.
16. AMENDMENTS: This Agreement may be amended by Issuer at any time; this may include a change
to the APR and/or fees.
17. ACCEPTANCE OF CARD OR CONVENIENCE CHECKS: Issuer is not responsible for the failure of
any merchant or financial institution to accept or honor your Card or convenience checks. A convenience
check may be returned unpaid if there is not enough available credit on your account to pay it, if your
Card or convenience checks have been reported lost or stolen, if the convenience check is post­dated
(shows a future date) or a credit review indicates a potential problem with your account. If you make a
purchase on your account, and the merchant discloses a policy such as “no returns,” “no refunds,” “no
return or credit without receipt,” “as is,” “store credit only,” “all sales final,” or similar statements, you will
be bound by that policy.
18. OTHER FEES:
18.1 Unless a billing error has been disclosed in your monthly statement, your account may be debited
as a purchase for each copy requested by you of a sale, refund or cash advance slip, or monthly
statement. See the Table of Charges for the fee amounts.
18.2 A return payment fee will be debited to your account as a purchase for each payment you make on
your account that is returned to us for any reason. For your first instance of a return check, the fee will not
exceed $27. If the second instance occurs within six (6) months of the first instance, the fee will not
exceed $38.
19. FOREIGN TRANSACTION FEE:
19.1 A foreign transaction fee will be assessed on all transactions where the merchant country differs
from the country of the card Issuer.
19.2 A foreign transaction fee will also be assessed if you make a transaction in a currency other than
U.S. dollars. In that case, Visa will convert the charge or credit in to a U.S. dollar amount. The exchange
rate on the processing date may differ from the rate on the date of your transaction. Visa uses an
exchange rate of either: (1) a rate selected by Visa or from the range of rates available in wholesale
currency markets for the applicable central processing date, this rate may vary from the rate Visa itself
receives, or (2) the government­mandated rate in effect for the applicable central processing date. In
each instance, the exchange rate is increased by an adjustment factor determined by the Issuer.
http://www.wheatlandcardsolutions.com/common/disc.aspx?id=64

3/7

7/26/2016

www.wheatlandcardsolutions.com/common/disc.aspx?id=64

19.3 The foreign transaction fee, is subject to change without notice and is currently 3% of the U.S. dollar
amount of the transaction, of which Issuer receives 2% and Visa receives 1%.
20. UPDATED FINANCIAL INFORMATION: Issuer may request from consumer reporting agencies from
time to time new consumer credit reports on you or request new financial information directly from you for
the purpose of updating Issuer’s records. Issuer may rely on the contents of such reports or other
empirically derived financial information to close your account and reduce the credit line on your account.
21. NOT SECURED CREDIT: Your account is not secured credit. Issuer retains no security regardless of
any other agreement you may have with Issuer.
22. COLLECTION COSTS AND ATTORNEY FEE: In the event Issuer must incur collection costs or
attorney fees in connection with your account, as permitted by applicable law, you agree to pay the
reasonable costs of collection, including, but not limited to, court costs, attorney fees and collection
agency fees in an amount not to exceed 15% of the unpaid balance on your account.
23. SIGNING YOUR CARD: Your Card must be signed by the person whose name is embossed on it in
order to be valid.
24. MOBILE DEVICES: Smart phones, tablets, or other mobile devices may download, store, and/or
access account information, for instance through a mobile wallet, that may enable you to use the mobile
device to purchase goods or services, make a balance transfer or cash advance. In certain instances,
those transactions will replicate using your Card to make a transaction on the internet with your computer.
In other instances, the phone or mobile device will act as if it were the Card itself. Applications that enable
your mobile device will have unique terms governing them. Read these terms carefully. Transactions
made through these applications are governed by this Agreement.
25. TELEPHONE CONTACT AND MONITORING: Issuer or its agents may contact you at any telephone
number you provide Issuer, including a cell number, or another number that you later convert to a cell
number. You agree to receive calls, text messages and voice messages, including pre­recorded
messages, at that number, including the use of automatic dialing technology for informational and
Account service calls. Message and data rate may apply. You may contact us any time to change your
phone preferences. Issuer may listen to and record telephone calls between you and us for the purpose
of monitoring and improving the quality of service you receive.
26. ACCOUNT NOTIFICATION: Issuer may contact you from time to time regarding your Card and
account. Account materials (Cards, statements and other notices) will be sent to the liable party at the
billing address. That person will be responsible for delivering those materials to the other liable parties
and authorized users. Notice to any of you will be considered notice to all of you.
27. GOVERNING LAW/ASSIGNMENT: This Agreement is governed by the laws of Kansas and the
invalidity of any term of this Agreement shall not affect the validity of any other term or condition. You
agree that we may assign and transfer your account, this Agreement and our rights and obligations
hereunder to others. The person(s) to whom we assign this Agreement shall be entitled to all of our rights
under this Agreement.
28. BILLING RIGHTS: KEEP THIS NOTICE FOR FUTURE USE: This notice contains important
information about your rights and our responsibilities under the Fair Credit Billing Act.
28.1 Notify Us In Case of Errors or Questions About Your Bill. If you think your bill is wrong, or if you
need more information about a transaction on your bill, write us on a separate sheet at the address listed
on your bill. Write to us as soon as possible. We must hear from you no later than 60 days after we sent
you the first bill on which the error or problem appeared. You can telephone us, but doing so will not
preserve your rights. In your letter, give us the following information:
Your name and account number.
The dollar amount of the suspected error.
Describe the error and explain, if you can, why you believe there is an error.
If you need more information, describe the item you are not sure about.
If you have authorized us to pay your credit card bill automatically from your savings or checking account,
you can stop the payment on any amount you think is wrong. To stop the payment your letter must reach
us three business days before the automatic payment is scheduled to occur.
28.2 Your Rights and Our Responsibilities After We Receive Your Written Notice. We must
acknowledge your letter within 30 days, unless we have corrected the error by then. Within 90 days, we
must either correct the error or explain why we believe the bill was correct. After we receive your letter, we
cannot try to collect any amount you question, or report you as delinquent. We can continue to bill you for
http://www.wheatlandcardsolutions.com/common/disc.aspx?id=64

4/7

7/26/2016

www.wheatlandcardsolutions.com/common/disc.aspx?id=64

the amount you question, including INTEREST, and we can apply any unpaid amount against your credit
limit. You do not have to pay any questioned amount while we are investigating, but you are still obligated
to pay the parts of your bill that are not in question. If we find that we made a mistake on your bill, you will
not have to pay any INTEREST related to any questioned amount. If we didn’t make a mistake, you may
have to pay INTEREST, and you will have to make up any missed payments on the questioned amount.
In either case, we will send you a statement of the amount you owe and the date that it is due. If you fail to
pay the amount that we think you owe, we may report you as delinquent. However, if our explanation
does not satisfy you and you write to us within ten days telling us that you still refuse to pay, we must tell
anyone we report you to that you have a question about your bill. And, we must tell you the name of
anyone we reported you to. We must tell anyone we report you to that the matter has been settled
between us when it finally is. If we don’t follow these rules, we can’t collect the first $50 of the questioned
amount, even if your bill was correct.
28.3 Special Rule for Credit Card Purchases. If you have a problem with the quality of property or
services that you purchased with a credit card, and you have tried in good faith to correct the problem
with the merchant, you may have the right not to pay the remaining amount due on the property or
services. There are two limitations on this right: (a) you must have made the purchase in your home state
or, if not within your home state, within 100 miles of your current mailing address; and (b) the purchase
price must have been more than $50. These limitations do not apply if we own or operate the merchant,
or if we mailed you the advertisement for the property or services.

Table of Charges
Interest Rates and Interest Charges
Annual Percentage Rate
(APR) for Purchases

12.24%

APR for Balance
Transfers

4.99% introductory APR for 12 billing cycles.
After that, 12.24%.

This APR may vary with the market based on the Prime Rate*.

This APR may vary with the market based on the Prime Rate*.
APR for Cash Advances

24.99%

Penalty APR and
When it Applies

27.99%
This APR may be applied if you make a late payment or your account
goes two billing cycles past due.
How Long Will the Penalty APR Apply? If your APRs are increased for
the above reason(s), the Penalty APR will apply until you make six (6)
consecutive payments when due.

Paying Interest

Your due date is at least 25 days after the close of each billing cycle. We
will not charge you any interest on purchases if you pay your entire
balance by the due date each month.
If you paid in full the New Balance on your previous statement by the
Payment Due Date, no interest will be applied to new purchases, or any
portion of a new purchase, paid by the current statement payment due
date.
We will begin charging interest on cash advances and balance transfers
on the date the transactions post.

Minimum Interest Fee

If you are charged interest, the charge will be no less than $1.50.

For Credit Card Tips from
the Consumer Financial
Protection Bureau

To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection
Bureau at www.consumerfinance.gov/learnmore

Fees
Annual Fee
Transaction Fees
Balance Transfer
http://www.wheatlandcardsolutions.com/common/disc.aspx?id=64

None.
.
3% of the amount of each transfer ($10 minimum, $250 maximum)
5/7

7/26/2016

www.wheatlandcardsolutions.com/common/disc.aspx?id=64

Cash Advance
Quasi Cash Advance
Foreign Transaction

5% of the amount of each advance ($10 minimum)
5% of the amount of each advance ($20 minimum)
3% of the U.S. dollar amount of the transaction

Penalty Fees
Late Payment
Returned Payment

Up to $37
Up to $38

Other Fees
Per copy of monthly
billing statement
Per copy of merchant
sales receipt

$3
.
$5

How We Will Calculate Your Balance: We use a method called “average daily balance (including new
purchases)”.
Loss of Introductory APR: We may end the introductory APR and apply the Penalty APR if you make a
late payment or your account goes two billing cycles past due.
Billing Rights: Information on your billing rights to dispute transactions and how to exercise those rights
is provided in this Agreement.
The APR for purchases is variable and is determined by adding percentage points (the "Margin") to the
Prime Rate (the "Index"). If the Prime Rate increases/decreases, it will cause the APR to
increase/decrease accordingly. We review the Prime Rate published in the Money Rates section of the
Wall Street Journal on the last business day of each month (the “Change Date”). If a change in the Prime
Rate causes the APR to change, we put the new APR into effect as of the billing period for which we
calculate the APR; then we apply the new APR to any existing variable rate balances. An increase in the
Index may result in an increase in the amount of any INTEREST, minimum payment and outstanding
balance.
As of February 1, 2016, the APR for purchases was 3.50% (Index) + 8.74% (Margin) = 12.24%, which
corresponds to a daily periodic rate of 0.0335%.
The 4.99% introductory APR, which corresponds to a daily periodic rate of 0.0137%, is good on all
balance transfers completed within 45 days of your account opening. Effective on the 13th billing cycle
after your account is opened, the APR will be the standard balance transfer APR. Balance transfers
completed after 45 days of your account opening will receive the standard balance transfer APR.
The APR for all cash advance transactions is fixed at 24.99%, which corresponds to a daily periodic rate
of 0.0685%.
The APR for Penalty pricing is fixed at 27.99%, which corresponds to a daily periodic rate of 0.0766%.
We may change the account rate, fees and other cost information at any time in accordance with
applicable law.

Wheatland Card Solutions appreciates your business.
For additional credit or to inquire about your account:
Visit wheatlandcardsolutions.com for online account access.
Call 888­521­8529; press “0” to speak to a Customer Service Representative. We are available
Monday through Friday, 7 a.m. ­ 8 p.m., or Saturday, 8 a.m. – 6 p.m. CT.
To report lost or stolen cards: call 888­521­8529, 24­hours a day.
Wheatland Card Solutions
105 N. Main
Wichita, Kansas 67202

WCS 02/16

http://www.wheatlandcardsolutions.com/common/disc.aspx?id=64

6/7

7/26/2016

www.wheatlandcardsolutions.com/common/disc.aspx?id=64
Site Map | Privacy Policy | Security Practices | Online Awareness | © Wheatland Card Solutions 2016

http://www.wheatlandcardsolutions.com/common/disc.aspx?id=64

7/7

